                              Closeout for MOO030008

     The complainant1 sent a n email to u s in which he alleged that the editors
of, and referees used by, a prestigious physics journal were negatively biased
against the publication of one of his manuscripts. The complainant submitted
a manuscript to the journal that was rejected. After a series of appeals, the
Editor-in-Chief upheld the previous Editor's decision to reject the
complainant's manuscript. The complainant believes the people involved were
biased against him because his results apparently raised questions about an
accepted result.
    The complainant's problem is with the journal's reviewers and editors, not
with NSF. Further, neither the complainant's research nor the journal are
supported by NSF. Therefore, we lack jurisdiction to pursue this allegation.
This inquiry is closed and no further action will be taken on this case.

cc: Integrity, IG




   1   (footnote redacted).


                                     Page 1 of 1
